audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Arlington, Texas, Police Department

GR-80-99-012
April 30, 1999

Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of five hiring grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Arlington, Texas. The Arlington Police Department received four grants totaling $3,450,000 to hire 46 police officers under two hiring grant programs and $5,000 to train 1 police officer under the Troops to Cops Program. The purpose of the additional officers was to enhance community policing efforts.

The Arlington Police Department properly managed the COPS grants, and they met the grant requirements to enhance and maintain community policing efforts. Thus, we make no recommendations, and this report is issued closed. Our scope and methodology appear in Appendix I.